Final Audit Report 503-2009 – Issued December 13, 2010

Incurred Cost Audit: Amtrak’s Design/Build Improvements Contract

Audit Identified a Total of $926,276 in Questioned and Unsupported Costs

The information below provides a summary of the final audit report 503-2009. The
audit report contains contractor proprietary information that should not be publicly
released.    We have summarized below the major findings, conclusions,
recommendations, management comments, and audit response.

Amtrak awarded a cost reimbursable plus fee contract up to a guaranteed maximum price
of over $2 million to perform work related to design/build improvements. Our audit
objective was to determine the accuracy and acceptability of costs invoiced by the
Contractor.

                          We identified $17,694 in net questioned costs and $908,582 in
 We identified a total    unsupported costs for a total $926,276 that could potentially be
 $926,276 in              recovered. The questioned costs were primarily the result of the
 questioned and           Contractor’s billing of relocation, insurance, and General and
 unsupported costs.       Administration costs that were not in the accordance with the
                          contract or specifically allowed by the contract. We found that
the Contractor did not provide adequate support for salaried staff costs and salaried staff
vehicle costs invoiced to Amtrak.

We also found that Amtrak’s Department of Procurement and Materials Management
(Procurement) did not ensure that all costs invoiced by the Contractor were in compliance
with contract provisions. Amtrak’s Procurement office and project manager did not
ensure that the Contractor’s invoices were adequately and appropriately supported.

Our draft report recommended that Amtrak take steps to recover overpayments and
remind staff to ensure that costs are adequately supported before paying vendor invoices.
Amtrak Management’s response to the draft report disagreed with most of the questioned
and unsupported costs, and with the recommendation to remind staff to ensure costs are
supported before paying vendor invoices. Management’s response, however, did not
contain sufficient facts or rationale to rebut the validity of the findings. Management’s
response in this case indicates a lack of appropriate attention to management controls
over payments.

Given this lack of attention, we addressed our final report and recommendations to a
higher level Amtrak official. We recommend Amtrak’s Chief Financial Officer direct
staff to initiate negotiations with the Contractor to recover the questioned and
unsupported costs, and to remind staff to ensure that costs are adequately supported
before paying vendor invoices. We further recommend that the Chief Financial Officer
review the adequacy of internal controls over the vendor invoice process, including the
control environment, and implement improvements as needed.
